   , . .




           IMPLEMENTING USER FEES
                    THE FOOD AND DRUG
                      ADMINISTRATION
                         A CASE STUDY





                        Richard P. Kusserow
                        INSPECTOR GENERAL




OEI-12- 90- 02020
                                              JULY 1990
             IMPLEMENTING USER FEES 

                THE FOOD AND DRUG

                        ADMINISTRATION

                           A CASE STUDY





     'i S f.IlVJC'rs.




"b


      lr"ila


OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPECTIONS
                                           JULY 1990
                                   , "




                                    INTRODUCTION


 PURPOSE

 In the past , the Office of Inspector General (OIG) has conducted audits of existing
 user fee systems and conducted analyses for the President' s Council on Integrty and
 Efficiency on establishing and implementing user fee systems in the U. S. Department
 of Health and Human Servces (HHS).

Over the past several years , HHS budget proposals have induded provisions       for user
fees to support various program activities previously funded through general
appropriations. In connection with these proposals , the Offce of
                                                                  Management and
Budget has suggested that the Department develop an analytic framework for
discussing and considering additional user fees in HHS. The
                                                             purpose of this report
is to provide such a framework using the Food and Drug Administration as the case
study.

BACKGROUND

User fees are charges directed at specific beneficiaries of specific governmental
activities. The HHS currently charges user fees for a variety of purposes. Additional
fees will become effective soon , induding user charges to States (who are expected
to recover the charge from end users) for using the Federal Parent Locator Servce
in certain cases , and user charges to laboratories conducting medical
                                                                       testing to
recoup the cost of regulating those laboratories under the Clinical Laboratories
Improvement Amendments of 1988 (CLIA).

The Food and Drug Administration (FDA) currently imposes user fees for several
activities , including color certification , reconditioning of products , and imported tea
inspections. Previous work by the Office of Inspector General has examined the
implementation of these user fees and th estimated costs that might be incurred and
recovered for proposed new fees.

General statutory autho ity for imposing user fees is found in title V of the
Independent Offices Appropriation Act of 1952 (10M), currently codified at 31
    c. 9 9701. Under this statute (t)he head of each agency.. may prescribe
regulations establishing the charge for a servce or thing of value provided by the
agency. " Executive guidance on this subject is provided in Office of Management
and Budget Circular A- , which outlines general policy for assessing and collecting
fees. Circular A- 25 states in part
       A user charge...will be assessed against each identifiable recipient for
       benefits derived from Federal activities beyond those received by the
         neral public.... (S)pecial benefit will be considered to accrue and a
       user charge will be .imposed when a Government servce: (a) enables
       the beneficiary to obtain more immediate or substantial gains or
       values...than those that accrue to the general public.. ; or (b) provides
       business stabilty or contributes to public confdence in the business
       activity of the beneficiary.. ; or (c) is performed at the request of or for
       the convenience of the recipient , and is beyond the servces regularly
       received by other members of the same industry      or group, or of the
       general public....

The Congress has also required agencies to impose user fees through specific
authoriing legislation mandating collection of user fees for certain activities.
Legislation directed HHS to charge users for use of the Federal Parent Locator
System and regulating medical laboratories under CLIA. AIl user fees currently in
place at the FDA are assessed in accordance with specific legislative guidance. For
color certification and antibiotic certification , the Congress directed FDA to assess
fees " as may be necessary to provide , maintain , and equip " the servce. (21 U. c. 9
357(b) and 376(e). ) For tea imports , the Congress prescribed that " no tea... shall be
examined for importation into the United States.. unless the importor or consignee of
such tea or merchandise , prior to such examination , has paid for deposit into the
Treasury of the United States as miscellaneous receipts , a fee of 3. 5 cents for each
hundred weight or fraction thereof of such tea and merchandise. " (21 U. c. 9 46a.
For imports , Congress also directed the FDA to charge the owner or consignee for
expenses incurred by the agency with respect to refused articles (e.g. , travel , per
diem or subsistence , and salaries of officers or employees involved in destruction or
relabeling). (21 U. c. 9 381(c).

For several years , budgets proposed by the Administration have included     provisions
for expanded user fees in FDA. Such proposals have never been enacted into law
by the Congress. Nevertheless ,the Presic.nt s 1991 budget includes a provision for
collection of $152 milion in new user fees by FDA

OBJECTIES AND METODOLOGY

The FDA was chosen as our case study because it is frequently suggested and
debated as a program area that might be funded through a system of user fees and
because it provides a rich background against which to explore the complexities of
the arguments for and against imposing user fees. To conduct this study, the OIG:

              synthesized previous work done on user fees , especially as it relates to
              FDA and other regulatory environments , through an extensive literature
              review and analysis;
assessed the experiences of selected Federal agencies and programs
with established user fees ,   through intervews with officials in those
agencies and review of relevant documents; and

assessed the views of program officials , affected industry
representatives , and others in regard tQ possible user fees in FDA.
       ... .
         . ..       ...
            .. .."".. .. ..   .,.' .....
                          .'....        ..'...'..' ..."...... .
                                     .....
                                        ...
                                        . "
                                       . ..
                                          ' .... .        . . .... .     ......
                                                     .... . ".... ...... ""
                                                                          ........    ...".","'"
                                                                                .,,". ....
                                                                                ... ....
                                                                                 ..         .......

                                                                                           ..   ..
                                                                                                . ........               ...    . . . ..... . ....
                                                                                                     .. . .. . .. . . . . .. ....




                                                           FINDINGS
User fee are impose on indidua and busines by the Federa State and locl
governents for a vaety of purse and                                    progr.
                                                  Some of the Federal actties
for which usr fees are impose are simar to actties underten in the Foo and
Drg Admjnj tration and paid for though genera appropriations.

User fees are collected for a wide range of governental activities at the Federal
State and local levels. Examples of these activities are listed in Exibits 1 and


                                                             XHffITl.
     STATEILCALACfIVITIES FpRWFICH USER FEES ARE IMPOSED


       Fire permits
     - Receational facilty.
     - Water and sewage supply 

                                   us
        License applications: professionallicense
     - Engineerig and building safety plan reView
                  , inspe ions      and plan revieW




     - Emergency. and police . servces
                                                              busil1esslicense , liquor licens
                                                               iindinpetiol1 .



                                         necestated by negligence                    or ilegal behavior




                                                         EXHffIT2. 

       FEDERALACfIVITIES FORWHlc:H USER FEES ARE IMPOSED

     -; . Certain typesofirpeions    . performedbytb                      l1mel1r()fAg(:lt\Jre.
        Patent. andtnideinrkservCeprbvdedbyt eJ)p8rtllent
     -. Pescie . regitration lit the ErivironmentaIPtOtectici.tenc. .
                                                                      C9mer
     - Fmgerprinting serves af the Federal Bureau ofIrivetigations .
     - Brodcat lii:ns from         the Federal CommuriicationsCommiiori. . .
     - Applications to.acquirecommercial ' rightsprcidbytheInterstte Commeri:Commission
       Inspection servces ofth Immigration and. Naturaliztion.S                             Mce ..
     - Rulings, determination 1etters , and opinion leue'rfronithe Interal Revnue Servce

       Copyght regisration by ihe Library of Congres .

                                      progrms by the Department of Transportatin

     - Adminitration. of pipeline saety
       Freeom of Informtion requests frm variou "agenci





Over time , various studies have found that the Federal Government is not recovering
appropriate costs through user fees. In 1982, the President's Private Sector Survey
on Cost Control concluded that recovering the full costs of Federal programs
benefitting specific beneficiaries would save taxayers $21 bilion over 3 years.
Assessing policies and practices regarding user fees in six executive departments in
  1989 , the President s Council on Integrity and Efficiency found that the
  not " maxmized the opportunity to establish and collect user charges as agencies have
                                                                          a method of
  recovering costs incurred in providing benefits to identifiable recipients.

 However , as Exibit 2 demonstrates , numbers of Federal
                                                            agencies do impose user
 fees--some of them for regulatory functions similar to those performed by FDA.
 Their experience is of special interest in examining the feasibility and method of
 instituting fees in FDA. (For a more complete description of these agencies
 fees systems ,
                                                                               ' user
                  see appendix A.

 The Environmental Protection Agency

 Under the Federal Insecticide , Fungicide and Rodenticide Act
 Environmental Protection Agency (EP
                                                                 (FIF), the

                                      A) is responsible for regulating pesticides. In

 1972, EP A was charged with the task of reregistering all pesticides in order to
 safety and environmental impact based on current scientific                      assess
                                                             dat and analysis. After
 numerous deadlines passed for      completing the reregistration effort ,   the Congress
              year program with user fees to supplement the reregistration effort.
 established a 9-
 The EP A charges a one-time reregistration fee for reviewing an active ingredient and
 charges a maintenance or annual fee to product registrants
                                                                 , which is based on
 number of registrations held.

Apart from this program , manufacturers are required to register their
EP A prior to marketing. The EP A had developed a fee
                                                                        products with

                                                           schedule to charge

manufacturers for processing applications for registering a pesticide product and
asssessed these charges for a short time prior to the
                                                          enactment of the accelerated
reregistration program. These fees were suspended until 1997 by
Once the reregistration effort is complete , EP A will again charge FIFR of 1988.
                                                                       these fees.
Applications are categorized as new chemical registrations
                                                               , new biochemical and
microbial registrations , new use pattern registrations , old chemical registrations
amendments and experimental use permits. Registration fees (based on
                                                                                1988 costs)
range from $184  500 for a new chemical review to $700 for an amendment review
submitted at the time of fiing.

The Federal Communications Commission

The Federal Communications Commission (FCC) charges fees for
applications for broadcast licenses based on authority granted the processing
                                                                     agency under the
Consolidated Omnibus Budget Reconcilation Act of 1985 (COBRA).            The COBRA
established numerous categories and amounts of fees to be
                                                               assessed and collected by
FCC in support of its application processing responsibilities.
The Federal Energy Regulatory Commission

The Federal Energy Regulatory Commission (FERC) assesses fees to regulated gas
oil , electric and hydroelectric companies. Fees are charged for the following
activities , among others: changes in producer rate schedules , producer certificates
applications , pipeline certificate applications , and changes in electric rates. The
general authority for collecting fees is found in the 10M and the Omnibus Budget
Reconciliation Act of 1986. Fees are assessed at the time of filing.

In addition to   specific user charges for its review of various fings, FERC charges
hydroelectric licensees annual charges to recover the costs of   regulating the
hydroelectric industry in accordance with the Federal Power Act. The FERC
recovers the remainder of its budget through annual charges levied on regulated oil
gas and electric firms based on broad authority granted the agency in the Omnibus
Budget Reconcilation Act of 1986.


The Nuclear Regulatory Commission

The Nuclear Regulatory Commission (NRC) charges fees to its licensees        for license
reviews and inspections based on the general authority in IOAA In addition , NRC
assesses annual charges on operating nuclear power reactors based on authority
granted the agency in the Consolidated Omnibus Budget Reconcilation Act of 1985
as amended. These 10M and annual COBRA fees together are to amount to
percent of the NRC budget.


User fee represent an application of the "bnefit priciple " of tation: those who
benefit from governenta proviion of a servce or goo should be requied to pay
for it To appropriately determe what progr with the Foo and Drug
Admitrtion could be fuded, paraly or in whole, though user charges, it is
necess to    fitask: who benefits from FDA reguation?

User fees are generally imposed when two basic conditions exist. First , certain
identifiable individuals or businesses--as distinct from the general public-- benefit from
the servce or function. . Second , the servce or good is exclusionary in nature.
other words , someone who has not paid for the servce or good can be excluded
from obtaining it.

According to the benefit principle of taxation , those who benefit from governmental
activity should be required to pay for it. Governmental functions which benefit the
 common good" and which are indivisible in nature (national defense is the most
obvious example) are to be funded through general taxation; special servces or
benefits conferred on select groups or individuals (mail delivered by the U. S. Postal
Servce , for example) are paid for by those select groups or individuals (the " users
 The principle itself is generally accepted as a valid premise on which to base revenue
 decisions. The Congress formally indicated its agreement with this principle in the
 early 1950s when it expressed concern that " the Government is not
                                                                        receiving full
 return from many of the servces for which it renders to special beneficiaries "4 and
 enacted the provision in 10M to allow agency heads to impose user fees for
                                                                                   various
 servces or products or value so long as the charge was (l) fair; (2) based on

 governmental costs , value of the servce or product, public benefit , and other

  relevant facts ; and (3) not prohibited by statute.


 Agreement in principle has not prevented controversy concerning the application of
 the principle to specific governmental functions and beneficiaries.
                                                                     A prime example
 is the disagreement which exists as to whether FDA should impose user fees for its
 regulatory activities.

 According to one view,   FDA' s regulatory activities in ensuring the safety of drugs
 devices , cosmetics and food entering the marketplace serve the public interest rather
 than commercial firms regulated under the Food , Drug and
                                                              Cosmetic Act. 5 For
 example , the Pharmaceutical Manufacturers Association , in testimony before

 Subcommittee on Rural Development , Agrculture , and Related
                                                                     Agencies on the

 President s 1991 budget , stated:


       The FDA product review activities for which this tax would be imposed
       are not voluntary--a basic requirement to justify user fees under current
       Federal policy. Instead , they are required by law for the public
                                                                          benefit.
       The only private benefit-- the second criterion for allowing user fees to
       be charged--that is received by regulated companies in the approval of
       health products premarking applications is that they are allowed to
       remain in business.

       Meanwhile , the alleged benefit of a so-called " seal of approval" by FDA
       on these products is discounted by the reality that the law prohibits any
       indication of such " approva1." Morever , FDA approval has not
       provided a defense , on the whole , from State product-
                                                                 liability laws to a
       manufacturer based on compliance with Federal Government standards
       of safety and effcacy.

According to this view, regulatory activities do not constitute a benefit to
                                                                               commercial
firms but rather a cost of doing business: to pay for the "

                                                           libert" of marketing a

product is to pay tribute to the agency in a distorted variation of the
                                                                        privilege theory
of taxation (those who exercise a privilege should pay for it).

Others make an opposite case. While they may agree that FDA
                                                                      serves the public
interest , they also see private benefits accruing to the regulated industry and the
consumers of their products. They point to the wide range of functions at the local
                                                  ...
                                                 ......
                                                    ..'...' .'..... '... .... ...
                                                   "...
                                                      ... ..... ... ......."
                                                          . .",
                                                        ..." ""           ......."... . ..... ,. ..

                                                                   ' . ... .
                                                                           .."'.. ...
                                                                            ...   .. ."
                                                                                     . ..."
                                                                                        ...
                                                                                        . . ....
                                                                                               . ..       ..




 State and Federal level supported in
 whole or in part by user fees; some of
 the agencies charging user fees are ,   like
                                                                           . WHO        BE?
 FDA, expressly constituted to protect                1bFDAis . not. theonJagency where
                                                        geemerit ha. evedover "who benefits"
 the public from harm. Further, they                  fr9Dits regulatory acivti

 suggest that the fact that regulation 

 mandatory does not constitute pria                   TheNillearReguJatOCo                              ion.   sucafull
                                                      defende its fee: schellleln ..                     broughtbefore
 facie evidence that regulated firms                  theoouribYPetitionersarguing they deried no
 derive no benefit from FDA activities;               pri         bCnefit from NRCaciVties.. The court
 nor does the fact that FDA product               agree thNRC' scontentionthar regulated
                                                  firm dcfirdC: deri a priate benefit . from
 review activities are mandatory prevent          thiraCtivitil:. .fM isippi Powr& Light                              Co.
 imposition of user fees (even under the         . v':rC                 F1fth.. Circuit Court of. Appels

 strict rules of 10M), because firms                  rejececftl1         rgumenL thafthe             NRC benefits

                                                  cjnlthe ger1atpublicand doe not confer .

 voluntarily enter a regulated business.7

                                                  fuat       fits 9nlieens;.. . The. court' s opinion
                                                  sta1Ccibat;';Nationai Cable (Televiion

In this view , the beneficiaries of FDA'          ASi:ijon/lnc. v.                  Fcq. the court recognized
                                                 theiluthorityof tbeFCC to asss a fee. even
regulatory activities include commercial          tfugh' themain function . of the Commision is
firms and the consumers of their                 to Saeg1ardthep blicinterest.' 415 U.
                                                 341 94S.Ctarn49         The Court thus
products. While public benefits accrue           ackl0wledgedthe FCC's     authority to asss
in the form of general improvement in            againt applicants a fee for servces rendered
health and safety, psychological                 nothwithStanding the strong public interest served
                                                 in PrOvdirigJhe   rvce;...
reassurance regarding the availabilty of
safe and effective drugs and devices                  Iicens. frrn the. NRCis an abslute
and protection from the spread of                piei   uistetooperatingariuclear facility, and as
                                                 sll   iSa nefi' no shared by other members
communicable disease controlled                  bfSoiety; .Aside from. the . benefit of being able
through Fl)A-approved drugs , the                to operate a busines , the. petitioners are.
                                                 recpients9fother beriefitsflowg from the

consumers of such products and firms
                                                 grntor a licens . or pennit.. (R Joutine
which manufacture the products derive            inpei(). c6ducedby                          theNRC could uncoer
special private benefit from FDA'                hadous**nditions which                           ifallowed to
regulatory activities. Consumers get             (:tinu     wot1ld jeopadize the Safe operation of
                                                    license sfacility. Inshort , We are nm
safe and effective products; and while            ilprCSbythepeitioners argument that they
attaching a user fee to   consumers of          . reciVenObel1efitfrom the conferral of an NRC
                                                 licens; . Even sO; to aCcpt. petitioners ' argument

such products may not be practical,             would mcim that                no    federa agency could         asss

charging the manufacturer " provides a          anyfeej sinee 311 publi                    agencies are    constituted

convenient , though admittedly imperfect         iI the.      publi       ter
es~
conduit for passing through some or all         Th First Cin:uitCourt of Appels cotinued thi
of the costs of the reguatory agency            line of       renig
                                                                in holding in New England
forward to consumer beneficiaries. "8 In        POwer. Company, et al. v. NRC that " revew work
                                                performed by the NRCat the reque:t or an
addition , a regulated firm reaps certain       applicant. constitues a. suffciently substantial and
benefits from FDA' s review, approval           parlicularidbenefit to. the applicat to justify
inspection and enforcement activities:          the impoition of fee " even where the
                                                application is voluntarily withdrawn.
permission to market a product
increased consumer confidence in
industry s products , reduced exposure (and potential liabilty) for
                                                                    businesses that
        ......'.... ....",..
         . ' "'
    . ". ..
         .            "..
                       .....
                    y",...."...... .......
                  . "..... . ....
                               .                 . .... ........ .
                                    . .. ..... ...                   ,.           ... ' '"
                                                                     ... . . q.."' ...
                                                                                   '    ... "'. ,".
                                                                          . . . ... . .......         ...   ........   ..   ... '
                                                                                                                            . .... """ ....
                                                                                                                            .... " ....  ....
                                                                                                                                           ...
                                                                                                                                           .... .      ...




 might have marketed a less- than-safe product except for FDA' s oversight , improved
 products resulting in better sales , and protection from unfair competition.


 The act of imposing a usr fee creates          benefits and costs which may by            cert
 themslves provde the                                 pri
                                  impetu or impeent to the charge. These
 benefits and costs may accrue to the agency or program instituting the fee , to the
 users themselves , and to the general public. Exbits 3 and
                                                             4 list the possible
 benefits and costs to these groups.





                                                                                   EXHffIT3. .
                                           POTENT.                                 :ENEFITS OFUS:ERFEES
              . n. "

       To theAgency.                                                        To the            Users                           To the PUblic

       Peripberarbenefitso(cos                                             . Can challenge            ageI1CyoI1.            . Relieved or cot. burden unless.
          accunting                                                           .servce         cots .                            auser orditect beneficiary
       Revenues act as "demand                                             . More rapid etfeciVe
        Signals" which allow the                                                                                               Qpportunity" benefit; . allow
                                                                               servce                                         . exting reSurCe to be usd
        . agency to        allocte resurces                                                                                       for other , more public goo
       . effciently improves governmenta
        effciency                                                                                                                 pruct and servces
      Increa reveues which. a)uld

        be use. forexpnsi()o . of seCe

        . or improvment. in. exiStg servces

       PpjXrtunit:" . . benefit; allO . exiing

      .resurces to. be. used forpther more

         public gOo, proucts arid. seces

    . AII() Jotr   upmerif()(Cots frm

         thosootSidedirecttaba .

      GOritrols      llof servce or goo

                  ul1gesmiuse                   courages

        eco


The priary    benefit of imposing user fees is generally considered the increased
revenue they generate , which might be used to continue , expand or improve
                                                                                  existing
servce. For some , these increased revenues might be important enough to overrde
other objections to the imposition of fees. However
                                                         , it has been suggested that other
benefits can accrue to the agency imposing the fee
                                                      , the general public, and even the
users themselves , when user fees are imposed. For example
                                                                  , the agency may become
more aware of the costs of its activities , better able to identify needed system
improvements , and more motivated to make those improvements. If fees are related
to both intensity and tye of servce , the agency can use the fees as a measurement
of resource requirements and a way of meeting those same resource demands
                                                                                                                                                             , and
users are more responsible for the use of resources.
     ....
       .........
         .....
      .....   .... '..
             ....   .......,.
                        .......
                        ......
                       . "'''
                      .......   ' .......
                         ........
                          '
                         "" ''''' "       .,....
                                       .....
                                      .....
                                         ... ...
                                               .  . ..
                                         . . .......  .... ..
                                             ............
                                                    .........                               ..... ......
                                                                                               .. "
                                                                                                 ..
                                                                                               ...
                                                           . ......, .. ....... ...... ... ... ..    ....
                                                                                                  .. . ""',."' ....
                                                                                                       .........
                                                                                                            '",...... ..
                                                                                                              ..'''......
                                                                                                      .......,.
                                                                                                       ".. .......
                                                                                                             ......  ............
                                                                                                                            "...... ......
                                                                                                                      ..''''..,.""
                                                                                                              ..'''''....      . ... ..."'''          . '''"
                                                                                                                                         ...... ..... ... ...   . ....
                                                                                                                                                                ...      . . '... .......
                                                                                                                                                                                  '....
                                                                                                                                                                                .. ..
                                                                                                                                                                               ...      ........
                                                                                                                                                                                      ...
                                                                                                                                                                                      .....   ..... 

                                                                                                                                                                                          ,."'.......,.
                                                                                                                                                                                              .... ....,..'''   '''.....   .




                                                                                                                XFmIT4.
                                                            POTENTIA . COSTSOPUSER FEES.
        . Tgih &encY.                                                                            ToihetJsi/fs                                                                      TOlhiPublic
              RevenueSmayrif
                Co ()f8diniiion.or .
                                                                  the .                         Le MfuentuScCs aLa
                                                                                                     diSCintage .                                                                                                     ration
                               ri .
                OOlJecri mayJ:t .
               fUnd to Want the effor
                                                                                              . Disourages us
                                                                                                Payingfor.8 baicse(V
                                                                                                                                                                              .....In

                                                                                                                                                                              ..Use. may adjust their
                                                                                                                                                                                 beJuvirin solly.
                    toOsnuul 9 .
               ormafbe .
               :haeaneffect                                                                                                                                                             undesrabJe .ways

                                                                                                                                                                               . Cotsn-"u-r1 on to
                             not accpftJeJee
          J':L1blic will

              I)iS ageS u                                   u.                                                                                                                      ;t:os:; .
                     )hepr                                         threby .
               i1c6
                    1I    it
                       rages gaming . u

              Redu.       regularbudget .

               appropritions.. . .

          I.gal         halJenges .



Users themselves benefit from increased effciency and accountability in agency
operations , as well as from system maintenance and expansion made possible as a
result of collected revenues. In addition , users directly charged for servces are
better able to document and challenge agency activities affecting their industry or
business.

At the same time ,                        user fees have certain costs beyond the fee which the user must
pay. As a practical matter, fees might be difcult to administer and may be too
small to warrant the effort of assessment and collection. Further, the collection of
fees may result in a reduction in agency appropriations in the amount of expected
collections through fees , a signicant concern to program offcials worred about
possible " shortfalls.

The public may not respond positively to the imposition of fees, even where it
relieves them of cost burdens , based on tneir fears that agency or user behavior
might be adversely or inappropriately affected. Regulatory offcials might be
particularly concerned that the agency s role in protecting the public from undue
health risks might be compromised by user fees;          might charge that the agency
is conducting inspections only to increase revenues , or that it is reluctant to impose
                                                                                                                                                fis
severe penalties on firms because such firms represent the funding source for the
agency. Firms might be discouraged from or delay applying for agency approval to
engage in various activities because of the user fee.

The possibilty of legal challenge to the fee represents another possible cost of
imposing a charge. Federal agencies have been challenged on
                                                                                                                                                                                        their authority to
institute fees and method for assessing fees.
          ..      .. ...........
                 ....
                ...         ."....     ..
                                  . ....
                                 ~~~ .....
                                ...,.....
                                 ....
                  ..." . ","... ""
                                "':        '
 .......
                                      . .."'       .....~~~~
                                              . . .. . . ....   .....
                                                         ....."'"
                                                               ...  .......
                                                           . ...... .    .. ...
                                                                        ...  . . ....
                                                                              . ... . . ...
                                                                              .....           . .. ..         ..




 Numerous considerations should be taen into accunt when developing the pricig
 and fee strcte of a usr charge. Some of these considerations are listed in
 Exibit




                                                .", n..


                       t6f    prOvding thei.         rVorprbdticL

               ':M*igin8I             ofprodfugthe. Sece or product .

                        riIiti         ;g:;publi benefits 

          . FEff             ODuse        gaVior .



                                                                        treciv fr
               4:;                              ??t1	                                                   mceor. product
               ';Yei'c ileq           itY
               7Abilio6ft                r to




The degree to which each of these considerations is taken into account would
signficantly affect how fees might be structured in FDA If we synthesize various
approaches to developing fee schedules based on possible application to FDA
activities , the following range of options emerges:

Consideration	                            ADDlication

Cot	                                      Fees based on actual or estimated costs                                        to the   agency of
                                          processing applications, conducting inspections and surveilance.
                                          Firms applying for FDA approval or market clearance or                                              being
                                          inspected would be charged for the cost of providing that
                                          servce.

Equity	                                   Fees based on abilty of firms to pay charges. Total agency
                                          costs for various fun ctions might be allocated among regulated
                                          firms based on sales , profits , market share , or other indices.

Industr Benefit	                          Fees based on benefit of FDA regulatory activities. Fees
                                          discriminate among activities based on anticipated benefit to                                         the
                                          firm , e.g. , user charges might be applied to approved drug
                                          applications but not for nonapproved drug applications.

Soal Benefit	                            Fees based on social benefit of various industry activities , e.g.
                                         full or partial waivers might be instituted for applications for
                                         important new drug therapies and applications for drugs to treat
                                         contagious diseases (one example might be AIDS drugs).
 Competition	             Fees based on market factors ,    e.g.   , larger firms might be charged
                          at a higher rate than smaller   fisto encourage new competitors
                          in the market; firms requiring more frequent inspections because
                          of past violations might be charged more than firms in
                          continuous compliance to reflect comparative costs of oversight
                          and to provide incentives for improved compliance performance.

 Accptace	                Fees based on expediency and past success of simiar user
                          charges , e.g. , fees might be developed to ensure acceptabilty to
                          the Congress and the court ,   industry, agency offcials , and
                      consumers.

  dmjnj~trtion	       Fees based on ease of administration ,e.g. , flat fees reflecting
                      average agency costs for processing certain
                                                                    tyes of applications;
                      fis  must include payment along with applications rather than
                      being biled.



          , user fee systems reflect consideration of many of these concepts. User
In practice
fee schedules at EPA, FCC, FERC, and NRC are based primarily on cost to the
agency. But the agencies have also instituted waiver systems to take into account
social or public benefit and effect of the fee on competition. For example
                                                                             , FERC
bases user fees on costs to the agency, but allow waivers for certain licensees
(municipalities and firms in financial diffculty); they recover the remaining portion of
their budget through annual charges which are assessed based on the market
standing of licensees. A somewhat similar system is in place at NRC and EP
                                                                               A and
with the exception of annual charges ,       at FCC.

Administrative feasibilty is also an important consideration. Complex
                                                                                  systems which
seek to impose user charges based on precise calculations of costs and complicated
waiver criteria are diffcult to administer and resource- intensive. Agencies tyically
try to strike a balance between such precision and administrative simplicity.

Little consideration is given to industry benefit (although at EP 

pesticides with " minor
                                                                          A, registration for
                           use "   are exempt from the fee schedule to take effect in 1997;
the equivalent exemption at FDA might be for orphan drugs). No system
                                                                            among the
four agencies bases any . of its charges on whether the
                                                        agency ultimately makes a
decision that is favorable or unfavorable to the applicant.          Offcials thought that
developing charges based on benefit to industry would be more difficult to develop
and defend in court than charges based solely on costs , as well as creating larger
conflct-of- interest problems for the agency.
                                              ...... .... '
                                              ........
                                                   .. . .
                                              .......     ' .... '"' .." ..
                                                 ....' ."'.."" . ""               .. .
                                                                                ....




   dmjnj~ terig   and collecg fee ca represnt a substatial inestment of agency
 resurce and      tie.
 Officials at the four agencies we visited agreed that " user fees are work." Fee

 schedules must be developed;

 regulations published in the Federal
 Register outlinng the fee schedule (if
 not detailed in legislation) and the              IMROVJG ADMITI. .EFCICY
 collection mechanism; public comments
                                                      To. iIIproveadministrntive effclencyand reduce
 received and considered; procedures                  adD1nistrativecOts for thecoJJ tion()fuser
 developed to account for incoming                    fee;tbeFCC ha entered. irtoa agreement
 funds , returned checks , insuffcient                 Withaldc boX"()perator     FJrmssend. their
                                                       appljctior, paynentand paynent J()rmto        the
 amounts included with figs ,   and                 lok booPerat()rwbodepotsthefeeir the

 biling; and procedures instituted for           .. tJ.s.Treaui'; f"Oresia1I)Iar fiings, the

 adjusting the fees on a periodic basis.            pa)'nt fornf!1d paYment resenttotheJock

                                                 . bo operator \Vfe the pplicati(mis depoited

 Because of these complexities , offcials         . direetly With the FCX: The operation of the
 estimated that FDA would require at              . lOk booperatorisfundedby. the Treaury.

 least 1 year to implement a user fee               Jh FCC i1implemented. this approach to

 system.
                                                   collecion andaccoting.        ba
                                                                                 . on     pat .
                                                   eXprience, which wa not positive , of mairtaining
                                                     acoUectionandaccounting operation withi the
                                                     COmmiion The FCC found this. internal
Officials at NRC and FERC, which                     operation to be difcult. to manage and to stff

have annual charges to supplement                   and. exprience significant procesngbackJogs of

specific processing and inspection fees             2to3weeks, The FCC estimates thaUhe
suggested that annual charges are easier
                                                    averagetim . for applications to be
                                                         bOoperator and received by FCC
                                                    the lock
                                                                                          Pro
to administer. At FERC (though not at         . Bureausror substative procing will. be 2 to 3
NRC) officials thought annual charges           daYs. ..
were better accepted by industry
because they are based on a measure of
 ability to pay, " even though such charges can result in             fis
                                                               which have not received
a particularized benefit from the agency s activities (for example
                                                                   , those that have not
made a filing with the agency durig the year) being charged                 to support those
activities. But not aU annual fees are easy to administer--            EP A reported diffculty in
assessing its reregistration fees because tne Congress required the agency to prorate
charges in certain cases based on market share. This approach requires the agency
to maintain records of market share , an index constantly in flux and requiring
continual adjustment.




Questions for policyakers considerig FDA usr fee include: (1) determg
                                                                              the
actities to be included orsupported by the fee; (2) determg the
asessment; (3) settg the fee; (4) decidig where the fee should be
                                                                  deposited; and
                                                                                         tig
(5) relatig the fee to the procss.
  Determining the activities to be included or supported         he fee

  One of the first decisions to be considered is what activities should be included in
  the user fee schedule. For example , to regulate new drug products
                                                                    , FDA requires
 submission of investigational new drug (INs) and new drug applications (NDAs).
 Once a product is approved , the agency conducts inspections of facilties producing
 approved drug products , collects and analyzes report of adverse drug
                                                                        reactions
 associated with approved drug products , and requires submission of NDA

 supplements when certain changes in manufacturig or labeling take place. 

 similar set of   activities takes place for generic drug and device clearance and

 approval.) Some proposals have focused on assessing fees for processing NDAs
 rather than the whole spectrum of activities associated with regulating new drug
 products. Ths approach has the advantage of adminstrative simplicity; it has the
 disadvantage of either limiting cost recovery for regulatory activities or of
                                                                                  subsidizing
 these activities by charging higher fees for NDAs. While firms which submit         NDAs
 for FDA approval may " use " more FDA servces in the way of IND review and
 consultation , inspection and other surveilance activities , this relationship is imperfect.
 Some firms may submit numerous INs for which an NDA is never
                                                                            submitted; some
 NDAs may not be approved , so no inspection or surveilance activity is required for
 that specific product.

The most complex system is one is which each discrete function or
performed by the agency is charged to a specific user. However tye of activity
                                                                  , this is not always
feasible , equitable , or necessary. For many FDA functions
                                                            , especially those other
than premarket approvals and inspections , FDA would face a formidable task to
identify the right firm to charge. In such cases , one manufacturer might initiate an
action with benefits to a larger group of manufacturers (device reclassifications
switches) or the identity of the manufacturer is obscure (e.g.                    , OTC
                                                                 , standard setting,
research , over- the-counter review, postmarketing surveilance reports).

As a result of congressional authorization , other agencies have moved to a
combination of user fees and annual fees which alleviates this difficulty. The
bils for application processing
                                                                                    NRC
                                  and inspectons while recovering an additional portion
of regulatory costs of generic activities through annual charges. The FERC and EP
have also moved to a combination of user fees and annual charges to more
recover total agency costs.                                                fully

Determining the timing of assessment

Another key decision for policymakers developing a fee system is when to actually
assess a fee. For example ,   a user fee for NDAs might be assessed    at the time of
filng or at the time of approval. Assessing    the charge at the time of filing more
fully recovers agency costs , encourages manufacturers to submit only those
applications with a reasonable chance of approval , and reduces possible conflcts of
                                              ... .        .'
                                                         .. "     ....   ...        . .. . ... .   ..
                                                                                                   ...




 interest (agency incentives to approve products in order to increase revenues).
 Assessing a charge at the time of approval has the advantage of more clearly
                                                                                linking
 the fee to particularied benefits   to the manufacturer. The Federal                                    agencies which
 we visited all assess charges at the time of filig, even though, lie FDA, they may
 take months or years to complete a review and make a determination that may
 ultimately be unfavorable. As discussed earlier, NRC successfully defended its
practice of charging a fee even when a firm voluntarily withdraws its application on
the basis that even applications which are withdrawn incur costs to the agency.
Thus , EP A, FERC, FCC and NRC all assess fees based on agency costs rather than
a favorable agency decision. Officials believe that this approach , in addition to
following the requirements of Circular A- 25 (which indicates that costs should be
recovered rather than the monetary equivalent of private benefits when Federal
activities have incidental public benefits) is also easier to defend in court.

Setting the fee



What are the agency costs to process
various tyes of applications , inspect                             WHT OOFSIT
facilities and goods , and meet other
regulatory obligations? The sidebar                   At NRCandFERC, fee are bad on strict
describes the approaches NRC, FERC
                                                      tra nganddocumentation af        by agency
                                                      employee. Employees supply infonnation on
                                                                                                         co
EP A, and FCC have taken to answer                    tie spnt on various categories of aCtivities; that
                                                      information is. entered. into
this question.                                                                             lime accounting
                                               . Sytems. Averagc:eotsby category of activity
                                                      aredeterminedby tabulating the number. of
Ideally the agency should consider, in                employee hours spnt on the                   activity, determining
setting fees, the economic adjustments              tbworkload for that activity. (e.g., number of
                                                    oompItedQ fiings), and delopig an average
that will occur based on the fee amount           . /1l1r1 cot per employee. Hours . ar divided by
and placement. Rational consumers
                        ldoad an   .l!ultiplibj~he hourly cot 

                                                      jjguraveragerots fo aciviies within that

make economic adjustments on the                      categor, l1e fee schedule . .is. updtedannually
basis of anticipated benefit and cost.                      ontheDewyea scIuian employee hours
Such decisions may work in favor of                   and rates (FERCis . starting to average cots over
                                                          yea period). 

efficient use of servce , but underuse or
overuse may also occur. Set too high , a              At EPA, cots of the registration program were
fee can discourage manufacturers from                 domented . using information
                                                                                 from. the. agency
                                                      tjme. accntig, tracng, management , and
producing drugs and devices. Too low                  ficil syem, along with input from program
a fee induces overuse of agency
                                FCC
                                                      offcial. The             us a
                                                                           more general
                                                      approach to develop estimated cots for
resources and servces. ' In the case of
FDA, althougl: manufacturers incur
                                                      procssing. various.      ty
                                                                              of filings and conducting
                                                      inspections. The FCC Schedule , while very
costs to prepare applications , the                               ba
                                                      detailed , is      primarily on its budget and COt
                                                      alloctions within. its bureaus.
absence of a fee or too Iowa fee may
nevertheless induce submission of
applications that the manufacturer
consideres to hold little prospect for success. (Such " overuse " of FDA resources
 might be indicated by the volume of withdrawn applications or approved applications
 yielding no marketed product.)

 Regardless of where the fee is set, some degree of economic adjustment wil1 occur.
 The net effect of these economic adjustments may be either positive or negative.
 Where a fee is charged for a previously "free " servce , some reduction in demand can
 be expected to occur, although in a regulated industry with fees imposed on profit­
 makig fis , the effect may be muted (especial1y if marginal costs
                                                                          are relatively
 low). Firs      may also merge capital and resources in order to reduce marginal costs.
 While offcials at FERC and NRC saw little to no effect on industry as a result of
 their fee systems , EP A offcials did report that smaller businesses
                                                                      were adversely
 affected by their reregistration fees; a number left the pesticide market
                                                                           , resulting in a
 smaller number of fee payers and higher charges for those remainng.

 Waivers may be one solution to correct undesirable economic adjustments
                                                                               , although
 a waiver system increases administrative complexity. Waivers can be based on the
 characteristics of the applicant (e. , smal1 businesses , nonprofit businesses) or on the
nature of the activity (e.g. , products with substantial ' 'benefit spilovers
                                                                              " to the general
public , such as drugs or devices representing important new therapies or drugs to
prevent the spread of communicable disease). Waivers will also tend to
                                                                         encourage
the activity to which they are applied:          for certain activities will
                                          higher fees
encourage firms to move resources towards those activities for which lower charges
are assessed.



Generally it is assumed that FDA user fees would result in consumers paying higher
costs for products regulated by the agency. To the extent that fees assessed by FDA
raise a fi' s overall costs , the firm may increase prices.
                                                             (Price increases and fees
would not likely be linked product-by- product when a      fi sells a lie of products.
To some extent any additional costs passed on to the .consumer would be offset by a
reduced tax burden. However, this shifting of costs might prove troublesome to
those already concerned about the high price of drugs and medical devices
                                                                               , or who
are concerned about trading a progressive (income- based) funding source for a
regressive (flat) funding source. The higner price would also induce consumers to
reduce purchases or substitute out of the higher-priced products. If fees were to
become a significant part of overall costs , affected products would be placed at a
disadvantage in competition with substitute products not burdened by
                                                                     significant fee
expenses , and consumers might be made worse off as a result of having to make
substitutions in the face of higher prices.

Deciding where the fee should    be deposited

Revenues from user fees can be deposited as miscellaneous receipts in the general
fund of the U. S. Treasury, to reduce the budget deficit or to offset agency
appropriations , or can be directed to the agency for general or specific use
                                                                              , as
  through a special revolving fund.
  Earmarking the revenues for use by the
  agency for specific purposes (e.g. , to
                                                                F.A'S.   REOLVIG
  fund improvements and expansions in              Fund colleced through           EP   Nsuser fee charges
  existing servce areas for which the user         for reregitiOn pring and . maintenance
                                                   fee are depoted in a newly created
  fee is imposed) may increase the                  reregitrtion . and exted.            proing fund
  lielihood of their acceptance by                 th.     S; Treaury, .      available to . the

  industry and others. Fungibilty                  AdmiisratO, without . fiyear            limitation ,   to
                                     of funds
  may be such that earmarkig is largely
                                                   carr out .   reregitration     an exted proing.
                                                  of similar applications,

                                                                                   Th singiJlar legislation
  cosmetic. Special arrangements have             reqires that collec. funds are earmarked                to

  been devised to improve credibilty that         supp. the actties . fOr whih . they wee
                                                  coJIected andaIlbw          the agency flexibilty in using
  earmarked funds will be used in a               the funds thought            the reregiration period as
 particular way. The EP A' s arrangement          irne the.. The EP A is using some of thes
                                                  fu    to iiprov
 ( see sidebar) for the disposition of fees
 is unique , and EP A officials considered
                                                  and internal    pr.    its data management sytems
                                                                                and procdures
                                                  bulk . of the monies to . expnd . the agency

                                                                                                   an the
 this element of the user fee system to           scentific exrtis and stff.

 be critical in obtaining the necessary

 industry support for the fee
                               program.
 ReJating the fee to the process



 Another key consideration is how the user fee wil
                                                       affect and reflect how FDA does
 its business. For example , some drug manufacturers
by the Offce of Inspector General , criticized the FDA   , in a previous study conducted
                                                             for inconsistency in reviewing
and approving applications for new and generic drugS. l0 An
OIG confirmed that there is significant variation in elapsed time  audit conducted by the
                                                                       to approval for
applications submitted by different manufacturers to different
generic drug product. ll If such variabilty is due to               reviewers for the same
                                                        differences among FDA
reviewers in workload , skill level , and requirements they impose
defensible to develop a fee which represents the average cost of, then it is more
category of application. Thus , manufacturers whose applications processing     a

                                                                     are assigned to less
experienced reviewers , reviewers who hav
                                              more applications to review , or reviewers
with more stringent standards , are not unfairly penalized by the assignment.    On the
other hand , if the differences in review times are attributable to
                                                                    differences in the
adequacy of applications submitted by manufacturers
                                                       , it might be more
charge a fee based on actual costs so that manufacturers which preparedefensible       to
                                                                            better
applications are not subsidizing those firms
                                              which submit less than adequate
applications.

As experts review FDA' s mission and performance
                                                      , procedures and protocols might
be altered.     Significant changes in FDA functions or procedures might affect
advisabilty of charging a fee for a particular function                                            the
                                                      , and might create a greater or
lesser case for imposition of a fee. 

                                     For example , some manufacturers have
that FDA reduce its involvement in the IND stage of                          suggested
                                                       product development while
others want increased FDA involvement at this stage. 12 One possible response is for
FDA to make its involvement at the IND stage voluntary. Manufacturers who
wanted to consult with FDA at this stage in order to better ensure that their NDA
would pass muster could do so ,while those that felt they had sufficient in- house
knowledge could proceed without FDA oversight. Under such a system , a user fee
for IND review and consultation would appear to be very appropriate: manufacturers
who feel they need and benefit from FDA advice and guidance would be charged a
fee for that consultation.



User fees to recover the costs of inspection activities represent another area where
process is an important consideration. The amount of variabilty and discretion in
how inspections are conducted leads to a set of questions similar to those we rais
in regard to drug application review. Further, if routine inspections are conducted
randomly, with some facilties never or infrequently visited by FDA, charging the
establishment under review a fee for the cost of inspection unfairly penalizes the firm
randomly selected for review. However, if every manufacturig or processing site is
inspected within a certain period (even if the period is one
                                                             of years , as with drug
and device manufacturing inspections), an equitable fee may be more easily assessed.
For some of these areas where the nature of the activity precludes easy assessment
of a fee , annual charges spread throughout industry might be the preferred solution.
                                          SUMMARY

  The question of whether to assess user fees in Federal programs is a
                                                                         contentious
  one. Considering user fees as a method of funding for a particular program     or
  agency precipitates debate which continues as any legislation and implementing
  regulations take form. Because imposition of fees involves charging users for
  previously funded through general appropriations                                servces
                                                   , questions of equity, effciency, and
  externalities naturally arise.

  Based on our review, we believe that user fees in the Food and Drug
                                                                        Administration
 (FDA), properly instituted , represent a legitimate method to recover regulatory
 Such fees would be consistent with fee systems in other Federal regulatory
       costs.
 environments. However, as this report demonstrates
                                                      , developing a fee
 FDA is not a simple matter. Even so , while time and                            system
                                                        resource intensive , the process
 of developing a fee system might have its own benefits
 of procedures and tasks and the                          ncluding increased scrutiny
                                     costs of doing business.


 In all four cases we examined , the Envionmental
                                                       Protection Agency (EP
                                                                    A), the
 Federal Communications Commission (FCC), the Federal Energy Regulatory
 Commission (FER C), and the Nuclear Regulatory Commission (NRC), the Congress
 has passed and the President has signed into law specific components of their user
 fee systems. While such legislation can range from the more general (authorizing
 agencies to collect annual charges , as with FERC and NRC) to the more
 (delineating an actual fee schedule                                                 specific
                                       , as with FCC) it is generally considered preferable
to sole reliance on the general authority in the Independent
                                                            Offices Appropriations
Act. Specific authoriing legislation allows for expanded authority, more flexibility,

and greater protection from legal challenge.


While we have not attempted to examine
                                           exhaustively how user fees might be
implemented in FDA, our review does suggest a number of
                                                             issues for consideration.
One of these is possible use of a hybrid system of annual charges   and
fees. Annual fees at EP A, NRC, and FERC have                           specific user
                                                   worked well , especially in concert
with specific user charges. Such a     hybrid system has increased cost recovery without
requiring detailed assessment of charges for every agency
                                                              activity.
The framework provided by this report might be used by other
  S. Department of Health and Human Servces (HHS) as theyagencies within the
implementing user fees in other areas. While this report is           consider
toward examination of our case study, FDA, the structure of      specifically tailored
questions may remain much the same for any HHS program. considerations and
             APPENDIX A

   SUMMARIES OF USER FEE SYSTEMS

IN OTHER FEDERAL REGULATORY AGENCIES

                                           Appendix A:    Summaries of User Fee Systems in
                                                          Other Federal Regulatory Agencies




 ENONMNTAL PROTECI0N                      AGENCY (EA) (1)

 Type of fee          Reregistration fees and maintenance (annual) fees.

 Amount of fee                                      , and based on characteristics of
                      Reregistration fees are variable
                      the pesticide such as the number and
                      and end use. Fees are paid collectivelytye of
                                                                  active ingredients
                                                               by all registrants of the
                      pesticide. One-time reregistration fees range from $50 000 to
                      $150 000. Maintenance fees are based on number of product
                      registrations held. Maintenance fees in FY
                                                                    1990 are $650 for
                      the first product and $1 300 for additional registrations
                                                                                , with caps
                      on the total fee for anyone part holding registrations.
Legal authority      Public Law 100- 532 ,    enacted October 25 , 1988 and effective 60
                     days later. Authority terminates in 1997.


Disposition of fee   Reregistration and expedited processing fund in the U.
                     Treasury, " available to the Administrator , without
                                                                          fiscal year
                     limitation , to carr out reregistration and expedited
                                                                                 processing of
                     similar applications " (e.g. , so-called "
                                                                me- too " applications). Pub.
                     L. 100- 532   s 102(k)(2).

WaiveT:              For reregistration of pesticides for minor use and partial
                                                                                     waivers
                     for small businesses.



Adjustments          Fees subject to adjustment by EP A Administrator in order to
                     collect $14 000 000 each fiscal year , except that maxmum
                     maintenance fee for Ji registrant with 50 or less registrations is
                     $20 000, and for a registrant with more than 50 registrations
                     $35 000.




                                        A -1

                         , "




                                         Appendix A:     Summaries of User Fee Systems in
                                                         Other Federal Regulatory Agencies




ENVONMNTAL PROTECTON AGENCY (EA)                             (2)

Type of fee          A pending fee schedule (to be implemented in 1997) will
                     establish registration fees for (1) new chemical registration
                     reviews; (2) new biochemical and microbial registration reviews;
                     (3) new use pattern registration reviews; (4) old chemical
                     registration reviews; (5) amendment review; (6) experimental use
                     permt reviews. (This fee schedule was in effect for a period
                       6 months prior to its suspension under       FIF
                                                                      of 1988.


Amount of fee        The pending fee schedule establishes the following charges (1988
                     costs): $184 500 for new chemical registration reviews; $64 000
                     for new biochemical and microbial registration review; $33 800
                     for new use pattern registration review; $4 500 for experimental
                     use permit review; $4 000 for old chemical registration review;
                     $700 for amendment review.

Legal authority      31 U.     c. 9701 and Public   Law 100- 202.         rules
                                                                    Proposed
                     implementing the fee schedule were published citing the
                     authority under 31 U. C. 9701. Subsequently, EPA' s FY 1988
                     appropriation (Public Law 100- 202) authorized EP A to collect
                     not more than $25 milion for its regulatory activities. The final
                     rule implementing EPA' s fee schedule cited both 31 U. c. 9701
                     and Public Law 100- 202 as its authority. EP A' s proposed rule
                     was published November 1986; the final rule was published May
                     1988. Public Law 100- 532, FIFRA of 1988 , postponed
                     implementation of the fee schedule until September 1997.

Disposition of fee   Under Public Law 100- 202 ,    fees for the agency s regulatory
                     activities will be deposited in a special fund available for
                     appropriation to carr out the agency s activities in the programs
                     for which the charges are made.

Waivers              The agency may waive the fee when (1) it initiates the
                     amendment; (2) the anticipated revenues from the uses
                     described in the application are insufficient to cover the fee; (3)
                     the applicant will experience severe economic hardship; and (4)
                     applications are for pesticides servng significant public interests
                     (e.    pesticides offering unique advantages for reducing public
                     health risks , those that significantly reduce a current
                     environmental risk , or a product with extraordinary utility in use

                                       A - 2

                                  Appendix A:     Summaries of User Fee Systems in
                                                  Other Federal Regulatory Agencies



               in Integrated Pest Management" ). Firms must submit a waiver
               request , and pay a fee for the review of the request. If the
               waiver is granted , the fee is refunded; if the waiver is denied
               the agency retains the fee.

Adjustments	   Based on periodic review of agency costs. New fees will be
               established through rule making.




                              A - 3

                                          Appendix A:      Summaries of User Fee Systems in
                                                           Other Federal Regulatory Agencies



  FEERA ENERGY REGUlTORY                   COMMSSION (FRC)
  TYpe of fee         Pilng fees for applications ,   petitions , requests for review and
                      certifications. The FERC has established 31 different categories

                      of fiings for which fees are assessed. Annual charges for the
                      cost of operating FERC which have not been recovered through.
                      processing fees are assessed against companies that hold
                      hydroelectric licenses , natural gas pipeline companies
                                                                              , public
                      utilties , and oil pipeline companies.
 Amount of fee       1990 filing fees range from $26 260 for a pipeline certificate
                     application to $80 for review of jurisdictional
                                                                     agency
                     determinations.

 Legal authority     For collection of filing fees , 31 U. c. 9701. Annual
                                                                           charges are
                     authoried by the Federal Power Act , Part I (16 U.
                                                                                c. s 991­

                     828(e) and Pub. L. 99- 509,   s 3401(a)(1), Omnibus Budget

                     Reconciliation Act of 1986.



Disposition of fee   Credited to FERC' s Proprietary Fund. Any revenues in
                                                                            excess
                     of FERC' s appropriation are credited to the General Fund of
                     the U. S. Treasury.

Waivers              If applicant is suffering severe economic hardship at the time of
                     filing, a petition for a waiver may be fied. State
                                                                        , municipalities
                     and anyone engaged in the offcial business of the Federal
                     government are exempt and may file a petition requesting such
                     exemption.
Adjustments          Updated annually in the Federal Register.




                                     A - 4

                                            Appendix A:    Summaries of User Fee Systems in
                                                           Other Federal Regulatory Agencies


  FEDERA COMMCATIONS COMMION 

                                                          (FCC)

  Type of fee	         Applications for broadcast licenses.
 Amount of fee	        The COBRA of 1985 established 80 fee categories. Fees
                       from as low as $20 for renewal of a cellular              range
                                                                    system license to as
                       high as $18 00 for an application to launch and operate a space
                       station.

 Legal authority	     Consolidated Omnibus Budget Reconciliation Act of 1985
                      Law 99- 272 , Section 5002( e) and                          , Public
                                                         (f), codified at 47 U. c. s 158.

 Disposition of fee   General fund of the U. S. Treasury "
                                                            to reimburse the United
                      States for amounts appropriated for use by the
                      carrng out its functions... "                             Commission in
                                                      47 U.   c. s 158(   e).
Waivers               No charges to radio servces of local government

                      highway maintenance , forestry-conservation        , police , fire

                      special emergency radio , or other
                                                                  , public safety and
                                                        government entities. No
                      charges for good cause in the public interest.
Adjustments	          Schedule to be reviewed every 2 years and adjusted to reflect
                      changes in the Consumer Price Index.




                                    A - 5

                           , "           , "                                     , "




                                                 ENDNOTES

 1. Office of Inspector General                Analysis of Costs Included in Current Food and
 Drug Administration User Fees and the Potential for Additional User               Fees

 December 1987 ,     A- 01-87- 02522.


 2. J. Peter Grace , Chairman , President's Private Sector Survey on Cost Control               War
 on Waste (New York: MacMilan                   Publishing Company, 1984.
 3. Audit Committee ,
                    President s Council on Integrty and Efficiency, "Audit of the

Establishment and Collection of User Charges " p. 3.


4. House Report 82- 384 ,        p. 2­


5. At one time  this view was widely held; as evidence , the 1959 version of OMB
Circular A- 25 which provides executive guidance on Federal user charges explicitly
used FDA approval of new drugs as an example of an activity particularly il-suited
for user fees. The latest version of OMB Circular A- , circulated in draft July
1987, uses the same example to demonstrate appropriate application of user fees. 52
Fed. Reg.


6. See Milton Kafoglis User Fees as a Regulatory Tool " in Thomas D. Hopkins
Federal User Fees: Proceedings of a Symposium , Administrative Conference of the
United States , Washington , D. , 1988 , p. 18.

7. In National Cable Television      Assn. v. U. S. the Supreme Court distinguished taxes
which are levied by Congress , from fees which are levied by Federal agencies based
on authority contained in 10M by developing this distinction: A fee " is incident to
a voluntary act , e.g. , a request that a public agency permit an applicant " to do
something. Hence the Court took the view that applicants enter a regulated industry
voluntarily, and thus amounts collected to support the activities of the regulating
agency are " fees " rather than " taxes.

8. Kafoglis ,   in Hopkins ,   p. 15.


9. See  for example , National Cable Television Asso. v Federal Communications
Com. (1976) 180 App DC 235 , 554 F2d 1094; Mississippi Power & Light Co.
United States Nuclear Regulatory Com. (1979 , CA5) 601 F2d 223 , 51 ALR Fed 571
cert den 444 US 1102 62 L Ed 2d 787, 100 S Ct 1066; and Skinner v. Mid- America
Pipeline Co. (1986) 87- 2098 , 57 LW 4458- 4462.

10. Office of Inspector General , Office of Evaluation and Inspections
                                                                       Perspectives
of Drug Manufacturers: Investigational New Drug and New Drug Applications " and
 Perspectives of Drug Manufacturers: Abbreviated New Drug Applications " 12- 90­
00770 and 12- 90- 00771 , February 1990.
                                                , "                  , "      " p.





11. Office of Inspector General , Office of Audit Management Advisory Report:
Vulnerabilties in the Food and Drug Administration s Generic Drug Approval
Report; " August 1989 , A- 15- 89- 00051.

12. Office of Inspector General , Office of Evaluation and Inspections Perspectives
of Drug Manufacturers: Investigational New Drug and New Drug Applications
12.
,. 
           , "                  , ", "   , "        , "    , "




                                    SELECTED REFERENCES


       During the course of the OIG' s literature review on user fees, the following references
       proved most helpful. Readers interested in more detail on Federal user fees should
       consult these sources.



       Eastern Research Group Inc. Federal User Fees: Data Compilation with
       Addendum " (prepared for the Administrative Conference of the United States
       symposium on user fees), Washington , DC, May 3 , 1988.

       Clayton P. Gilette and Thomas D. Hopkins Federal User Fees: A Legal and
       Economic Analysis Boston University Law Review. Volume 67, Number 5
       November 1987, 795- 874.

       Thomas D. Hopkins , editor Federal User Fees: Proceedings of a Symposium
       Administrative Conference of the United States , Washington , DC, 1988.

       President' s Council on Integrity and Effciency, "Audit   of the Establishment and
       Collection of User Charges " February 1989.

       United States Congress ,   Congressional Budget Offce Charging for Federal
       Servces " December 1983.

         S. Department of Health and Human Servces , Food and Drug Administration
       Offce of Planning and Evaluation User Charge Study, " August 1983.

          s. Department of Health and Human Servces , Office of Inspector General , Office
       of Audit Analysis of Costs Included in Current Food and Drug Administration User
       Fees and the Potential for Additional User Fees " A- 01-87- 02522, December 1987.




                                                   c - 1

